                            SOCIAL SECURITY
                            Office of the Inspector General
                                     May 26, 2010


The Honorable Earl Pomeroy
Chairman, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Pomeroy:

In an August 4, 2009 letter, former Chairman Tanner requested that we (1) examine
conferences held during the past 5 years where Social Security Administration (SSA)
funds were used or Agency staff was present; (2) determine how much was used for
such training as a percent of the Agency’s overall administrative expense, as well as the
role of off-site training conferences within these training funds; (3) discuss the
decisionmaking process behind the off-site training and steps to ensure service delivery
is not impacted when employees are at these conferences; and (4) provide information
regarding planned conferences through Fiscal Year 2010. This report addresses issues
1 and 4 regarding conferences held over the past 5 years and those planned for Fiscal
Year 2010. We will address the remaining issues in our next report.

To ensure the Agency is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency. I have also sent a similar response to
Sam Johnson, Ranking Member, Subcommittee on Social Security, and to John Linder,
Ranking Member, Subcommittee on Income Security and Family Support.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-governmental Liaison, at (202) 358-6319.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General
Enclosure
cc:
Michael J. Astrue
Sam Johnson
John Linder


           SOCIAL SECURITY ADMINISTRATION          BALTIMORE MD 21235-0001
                            SOCIAL SECURITY
                            Office of the Inspector General
                                     May 26, 2010

The Honorable Sam Johnson
Ranking Member, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Johnson:

In an August 4, 2009 letter, you requested that we (1) examine conferences held during
the past 5 years where Social Security Administration (SSA) funds were used or Agency
staff was present; (2) determine how much was used for such training as a percent of
the Agency’s overall administrative expense, as well as the role of off-site training
conferences within these training funds; (3) discuss the decisionmaking process behind
the off-site training and steps to ensure service delivery is not impacted when
employees are at these conferences; and (4) provide information regarding planned
conferences through Fiscal Year 2010. This report addresses issues 1 and 4 regarding
conferences held over the past 5 years and those planned for Fiscal Year 2010. We will
address the remaining issues in our next report.

To ensure the Agency is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency. I have also sent a similar response to
Earl Pomeroy, Chairman, Subcommittee on Social Security, and to John Linder,
Ranking Member, Subcommittee on Income Security and Family Support.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-governmental Liaison, at (202) 358-6319.

                                                Sincerely,



                                                Patrick P. O’Carroll, Jr.
                                                Inspector General
Enclosure

cc:
Michael J. Astrue
Earl Pomeroy
John Linder


            SOCIAL SECURITY ADMINISTRATION         BALTIMORE MD 21235-0001
                            SOCIAL SECURITY
                            Office of the Inspector General
                                     May 26, 2010


The Honorable John Linder
Ranking Member, Subcommittee on
 Income Security and Family Support
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Linder:

In an August 4, 2009 letter, you requested that we (1) examine conferences held during
the past 5 years where Social Security Administration (SSA) funds were used or Agency
staff was present; (2) determine how much was used for such training as a percent of
the Agency’s overall administrative expense, as well as the role of off-site training
conferences within these training funds; (3) discuss the decisionmaking process behind
the off-site training and steps to ensure service delivery is not impacted when
employees are at these conferences; and (4) provide information regarding planned
conferences through Fiscal Year 2010. This report addresses issues 1 and 4 regarding
conferences held over the past 5 years and those planned for Fiscal Year 2010. We will
address the remaining issues in our next report.

To ensure the Agency is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency. I have also sent similar responses to
Earl Pomeroy, Chairman, Subcommittee on Social Security, and to Sam Johnson,
Ranking Member, Subcommittee on Social Security.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-governmental Liaison, at (202) 358-6319.

                                                Sincerely,



                                                Patrick P. O’Carroll, Jr.
                                                Inspector General
Enclosure
cc:
Michael J. Astrue
Earl Pomeroy
Sam Johnson

           SOCIAL SECURITY ADMINISTRATION          BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT


 Off-site Training Conferences

         A-05-10-21035




           May 2010
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                           Background
OBJECTIVE
Our objective was to examine off-site training conferences held during the past 5 years
where Social Security Administration (SSA) funds were used or Agency staff was
present and to provide information regarding conferences planned through Fiscal Year
(FY) 2010.

BACKGROUND
An August 4, 2009 letter from the former Chairman of the Social Security Subcommittee
and Representatives Johnson and Linder requested that we review the appropriateness
of SSA’s off-site training conferences. Specifically, we were asked to (1) examine
conferences held during the past 5 years where SSA funds were used or Agency staff
was present; (2) determine how much was used for such training as a percent of the
Agency’s overall administrative expenses, as well as the role of off-site training
conferences within these training funds; (3) discuss the decisionmaking process behind
the off-site training and steps to ensure service delivery is not impacted when
employees are at these conferences; and (4) provide information regarding planned
conferences through FY 2010.

This report responds to questions 1 and 4, providing information on conferences held
since October 2004 and held or planned to be held in FY 2010. At a future date, we will
issue a second report to respond to questions 2 and 3 to discuss total training costs and
the budget/planning process. 1 For both reports, we will build on information obtained as
part of our December 2009 Congressional Response Report: San Francisco Regional
Management Training Forum.

SSA’s Administrative Instructions Manual System (AIMS) requires that Agency training
be designed to ensure the optimum use of human resources in achieving organizational
goals and approved employee development plans by the most cost-effective and
professional means available. 2 Moreover, this training must conform to appropriate
laws, regulations, and the terms of negotiated agreements.




1
 The second report will be issued under the title, Training Expenditures at the Social Security
Administration (A-05-10-10118).
2
  SSA, AIMS, Training Manual, Chapter 1, Section 01.01.04.A—Development and Management of
Training Policy and Training Course Evaluation. AIMS is the official medium for issuing SSA’s policies,
standards, and instructions on administrative subjects. AIMS provides a single integrated,
comprehensive approach to issuing policies and procedures covering all administrative subjects, other
than personnel matters.


SSA Off-site Training Conferences (A-05-10-21035)                                                         1
In addition, per Federal regulation, Federal agencies are allowed to use a variety of
methods to train employees, including classroom, on-the-job, technology-based,
satellite, self-development activities, coaching, mentoring, career development
counseling, details, rotational assignments, cross-training, and developmental activities
at retreats and conferences. 3

SCOPE AND METHODOLOGY
To meet our objectives, we compiled, analyzed, and relied on Agency-provided training
conference data, such as purpose, duration, and direct costs, for the period
October 1, 2004 and later. The reporting of conference information to us was subject to
certain minimum materiality thresholds, such as the number of attendees and
conference costs incurred per off-site event. 4 As part of our data analysis, we
developed an estimated salary and benefit cost for conference attendees to provide a
more comprehensive basis for evaluating all costs associated with SSA employee time
spent on off-site training. In addition to applying analytical review procedures to the
compiled data, we made limited inquiries of management where certain data elements
appeared anomalous or incomplete. See Appendix B for our full scope and
methodology.




3
    5 C.F.R. § 410.203—Options for Developing Employees.
4
    See Appendix B for the criteria we used to request data from SSA components.


SSA Off-site Training Conferences (A-05-10-21035)                                           2
                                                        Results of Review
Between October 2004 and November 2009, SSA conducted 168 training conferences
for about 26,000 attendees at a cost of approximately $23.5 million. SSA reported
158 training conferences were held from October 2004 through September 2009 and
another 72 conferences for FY 2010. SSA components were able to provide us with
about 85 percent of the requested conference details for our period of review. From the
reported information, we determined that the average training cost per attendee at an
SSA-sponsored, off-site event was about $900. In addition to direct conference costs,
we estimate the total salaries and benefits associated with the 168 training events under
review to be about $29.1 million. We also found that approximately $1 million was
spent for audiovisual services and another $2 million for speakers. In addition, some
conferences included costs related to award ceremonies and receptions. The top three
States in terms of number of conferences held were Maryland, Georgia, and California,
indicating SSA was attempting to keep many of the conferences close to Headquarters
in Baltimore, Maryland. In August 2009, the Commissioner centralized conference
oversight and related procurement activity and required that all components provide
their proposed conference plans for FYs 2010 and 2011 by November 30, 2009. This
new policy should improve Agency controls over off-site training conferences.

CONFERENCES HELD IN THE PAST 5 YEARS
SSA reported it held 158 training conferences from October 1, 2004 through
September 30, 2009. 5 During the first 2 months of FY 2010, the Agency reported an
additional 10 conferences, bringing the total number of reported training events
conducted through the time of our review to 168. During this timeframe, approximately
26,000 people participated in off-site training conferences at a total cost to the
Government of approximately $23.5 million (see Table 1).




5
 These reported training conferences met certain minimum threshold requirements, as shown in
Appendix B.


SSA Off-site Training Conferences (A-05-10-21035)                                              3
                        Table 1: Off-Site SSA Training Conferences
                            (October 2004 through November 2009)

                                                        Reportable      Number of      Conference
                        Office                         Conferences      Attendees        Costs
 Office of Budget, Finance and Management                         1            254        $ 95,144
 Office of Communications                                         4          1,329       1,823,267
 Office of Disability Adjudication and Review                   26           4,179       4,371,804
 Office of General Counsel                                      11           1,154         931,832
 Office of Human Resources                                      30           5,314       7,421,792
 Office of the Inspector General                                  1            112         147,168
 Office of Operations                                              63        12,591       4,933,451
 Office of Quality Performance                                      1           139         112,249
 Office of Retirement And Disability Policy                        31           998       3,660,201
 Totals                                                           168        26,070     $23,496,908
Note: Conferences were not reported for the Offices of the Chief Actuary, Chief Information Officer,
Legislative and Congressional Affairs, or Systems. The Office of Quality Performance became a Deputy
Commissioner level office in March 2006.

The data in Table 1 demonstrate that the Office of Operations (Operations) constituted
the majority of conferences held based on the number of attendees, 12,591 people,
representing about 48 percent of total attendees trained from October 2004 through
November 2009. Further, Operations held the largest number of training events,
63 conferences, or 37.5 percent of the total 168 conferences reported for all
components. A detailed analysis of the composition by Operations’ subcomponent is
found in Appendix C.

NATURE AND SUBSTANCE OF THE CONFERENCES

The purpose and content of the training conferences reported to the Office of the
Inspector General (OIG) by the Agency varied widely, depending chiefly on the mission
and goals of the reporting component. We also found that, in some instances, the
training conferences included activities aimed at recognizing and rewarding employee
performance. Some conferences, such as those reported by the Office of Human
Resources (OHR), were symposiums designed for SSA employees undergoing
leadership development programs and covered instructional topics, such as the Federal
budgeting process. Other conferences, including some reported by the Office of
Retirement and Disability Policy (ORDP), were attended by more outside invitees than
SSA employees and related to civic outreach initiatives, such as disability awareness
and homelessness.




SSA Off-site Training Conferences (A-05-10-21035)                                                      4
The most common type of training conference was described on meeting agendas as
“annual” or “management” conferences. For example, many of the conferences
reported to us by Operations’ Office of Disability Determination (ODD) and the Office of
Disability Adjudication and Review (ODAR) were described in this way. Based on our
review of the documentation for these meetings, it appears these events generally
covered operational matters, such as workload planning and technical training on
information systems.

DATA GATHERING AND COMPLETENESS

SSA components provided about 85 percent of the requested details related to reported
conferences. The remaining
15 percent was incomplete, which may                SSA components provided about
relate to record retention policies and            85  percent of the requested details
differences in recordkeeping among                   related to reported conferences
              6
components. Some SSA components,
such as the Office of Communications, were able to supply 100 percent of the
requested information relatively quickly, while other components, such as the Office of
General Counsel (OGC), had difficulty providing all of the required data. As a result,
OIG staff worked with OGC personnel to develop conference cost estimates based on
partial meeting information.

When we analyzed conference data completeness by specific element type, we found
that components were able to provide approximately 96 percent of the conference
agendas, but were only able to provide 69 percent of the requested full attendee details 7
and 68 percent of full cost 8 information, respectively. The degree of submission
completeness by data element type is displayed in Figure 1.




6
  Agency staff stated that AIMS is being revised to include guidance and requirements on records
retention for conference activities.
7
  “Full” attendee details included participants’ job titles and grades, which, if not recorded at the time an
event was planned and held, would be understandably difficult to generate after the fact, several years
later. See Appendix B for a complete listing of requested details.
8
 “Full” conference cost details required a breakdown by major cost category, such as audiovisual, travel,
entertainment, etc. See Appendix B for a complete listing of requested details.


SSA Off-site Training Conferences (A-05-10-21035)                                                               5
   Figure 1: SSA Component Data Submission Completeness by Data Element




Note: Percentages of completeness were based on an “if applicable” basis. That is, some conferences
did not have speakers, while other training was taught by course instructors without agendas. In addition,
the consistency in component data reported to OIG varied; some components supplied us with
meticulous spreadsheets referenced to detailed supporting documents while other components sent
multiple emails, zip files, and scanned papers with handwritten notations.

RESULTS BY COMPONENT

As part of our analysis, we identified trends related to conference costs, attendance,
and location. We also looked at the frequency of conferences over the past 5 years.

Conference Costs and Attendance

The average conference held from October 2004 through November 2009 cost the
Agency approximately $140,000 to train
155 people over 3 days. Overall, the average     Overall, the average training
cost per attendee at an SSA-sponsored,              cost per attendee at an
off-site event was about $900. This does not    SSA-sponsored,     off-site event
include the cost of salaries, which we discuss          was  about  $900
later in this report. Moreover, the number of
conference attendees ranged from 8 to 1,458 people, and the training ranged from 1 to
8 days.

The most expensive reported conference was sponsored by the San Francisco
Regional Office in July 2009, as discussed in detail in our December 2009
Congressional Response Report: San Francisco Regional Management Training




SSA Off-site Training Conferences (A-05-10-21035)                                                        6
Forum. This meeting cost the Agency approximately $675,000 for 667 people. 9 The
second most expensive meeting reported was an OHR-sponsored 2006 SSA Diversity
Conference in Atlanta, Georgia, where 1,458 people convened for 3 days at a cost to
the Government of approximately $650,000. 10

We found the less expensive conferences related to regional office attendance at
events sponsored by local Social Security Management Associations. While these
multi-day meetings were not SSA-sponsored events per se, the Agency had paid for
minor meeting expenses, such as speaker fees. The Agency generally allows SSA
management personnel attending such meetings to take 1 day away from their normal
duty stations to travel to the meeting location. In our review of the conference
information, we found that these meetings typically cost the Agency less than $5,000
per occurrence.

Some conferences had costs that were neither accounted for nor controlled by the
hosting/reporting entity. As such, some expenses would not have been reported to OIG
as part of our data request. 11 Given the Agency’s inability to report conference
information uniformly from one point of designated control, we believe the reported cost
and attendee information is incomplete and likely understated by an indeterminate
amount. 12

Salaries and Benefits

As part of our analytical review procedures, we also calculated the estimated SSA
salary and benefit cost 13 for each conference held from October 2004 through
November 2009. Based on our calculations, we estimate the total salary and benefit
cost for the 168 training events under review to be about $29.1 million, approximately
23 percent over the reported direct conference costs of $23.5 million. The salary and
benefit costs, approximately $1,100 per attendee, included the time spent at the


9
    The average cost per attendee for this forum was about $1,000.
10
   The average cost per person for this meeting was about $440. Attendees, including employees, were
required to pay their own travel and lodging expenses if they wished to attend. An OIG investigation of
this conference found issues with procurement, the competitive bidding process, and misused funds. We
discuss this investigation in Congressional Response Report: San Francisco Regional Management
Training Forum (A-05-09-29174), December 2009.
11
  Good examples would include some of the conferences hosted by Operations’ ODD and OGC, where
some attendee travel expenses were incurred apart from the hosting party, falling under the scope of
responsibility of a different SSA office, SSA component, or an affiliated governmental entity, such as a
State disability determination services (DDS).
12
     SSA has since centralized this oversight, as we discuss later in this report.
13
   The objective of this analysis is to provide a quantitative basis for understanding the total Agency costs
associated with employee time spent on training. This analysis does not include an opinion on the
relative importance or efficacy of SSA employee training activities. See Appendix E for more on our
salary and benefit calculations.


SSA Off-site Training Conferences (A-05-10-21035)                                                           7
conference and related travel time. In Table 2, we provide the 10 most expensive
conferences in terms of total costs; both direct conference costs and salary and benefit
costs.
              Table 2: Most Expensive Conferences—Reported Direct
                               and Salary/Benefit Costs
                           (October 2004 Through November 2009)
                                                    SSA Total          SSA
                                      Number        Reported        Estimated            Total
       Description           Date        of          Direct         Salary and        Estimated
   of Event and State        Held    Attendees       Costs           Benefits            Costs
 2006 SSA Diversity          July
                        1                   1,458   $   641,417     $ 1,339,160      $ 1,980,577
 Conference (Georgia)        2006
 2009 HOCALJ
            2                May
 Conference                                   359       473,421          851,692          1,325,113
                             2009
 (Tennessee)
 Regional Management
                3            July
 Training Forum                               667       675,080          612,634          1,287,714
                             2009
 (Arizona)
                  2
 HOCALJ Summit               June
                                              313       530,562          742,561          1,273,123
 (Arizona)                   2008
 DDS Systems "Gear
                4           August
 Up!" Workshop                                812       497,320          745,815          1,243,135
                             2008
 (Maryland)
 Operations
                      5     August
 Automation/Systems                           607       586,563          557,524          1,144,087
                             2006
 Workshop (Maryland)
 2008 Judicial               July
            2                                 286       375,274          678,506          1,053,780
 Conference (Georgia)        2008
 2008 Judicial              August
            2                                 271       373,291          642,920          1,016,211
 Conference (Illinois)       2008
 2008 Judicial               July
            2                                 275       346,000          652,410            998,410
 Conference (Arizona)        2008
 2008 Judicial
            2               August
 Conference                                   274       331,186          650,038            981,224
                             2008
 (Maryland)
 Totals                                     5,322 $    4,830,114    $ 7,473,260      $ 12,303,374
Notes:
1. Sponsored by OHR.
2. Hearing Office Chief Administrative Law Judge (HOCALJ) conferences and Judicial Conferences were
   sponsored by ODAR.
3. Sponsored by the San Francisco Region.
4. Hosted by Operations.
5. Hosted by the Offices of Operations and Systems.

The relative amount of costs associated with direct costs versus salary and benefit
costs may differ for a number of reasons. For example, at the 2006 Diversity
Conference, attendees paid much of the travel costs related to the conference, so the
Agency’s direct conference costs were reduced. In other cases, such as ODAR
conferences involving higher paid ALJs, the Agency may experience higher salary and
benefit costs.




SSA Off-site Training Conferences (A-05-10-21035)                                                 8
It is possible that the Agency would have incurred a majority of these costs—conference
costs as well as salary and benefit costs—whether the conference was off- or on-site.
For instance, conferences held in-house would still entail employee time and therefore
salary and benefit costs. In addition, in-house conferences may also incur similar direct
costs, such as speaker fees, as well as transportation and hotel costs, if attendees need
to travel to the training from around the region or country. Direct costs could be
reduced by changing the method of delivery. For example, using Interactive Video
Teletraining (IVT) equipment 14 would allow the Agency to avoid some of the costs
related to travel. However, as we noted in our December 2009 review, 15 the use of
such equipment may alter the nature of the training provided to participants and
therefore provide a different experience.

Audiovisual and Speaker Costs

We also reviewed the amount paid for speakers and audiovisual services. Components
reported spending a total of approximately $986,000 for audiovisual services at
88 conferences (52 percent) from October 2004 through November 2009. Of these, the
San Francisco Regional Office had the
highest audiovisual cost at any single event,    The San Francisco Regional Office
approximately $68,000, incurred at its July      had the highest audiovisual cost at
2009 Regional Management Training Forum                   any single event
in Phoenix, Arizona. Components reported
114 conferences (68 percent) where speaker costs were incurred. Total reported
speaker fees were about $2.1 million. OHR reported the highest speaker fees related to
three Leadership Matters Symposiums, where approximately $75,000 in speaker fees
was paid at each of these three events. OHR's expenditures in this category comprised
approximately 75 percent of total reported speaker costs.

Awards and Receptions

We also noted that 26 (15 percent) of the reported conferences were described as
“award” related events on agendas and other documentation. Finally, we identified
36 conferences (21 percent) where some form of reception was available for the
attendees. We reviewed the costs related to these 36 conferences and found
approximately $348,000 in food and entertainment expenses. 16 However, most of the
reporting components did not provide detailed cost breakouts, and, in those cases
where food and entertainment break-outs were provided, we could not determine from

14
   IVT consists of interactive distance learning where the participants are at a training facility separate
from the course instructor. The IVT is broadcast live from an SSA studio and received on a television
monitor. IVT uses a satellite transmission system, enabling the student to view and respond to the
program.
15
  SSA OIG, Congressional Response Report: San Francisco Regional Management Training Forum
(A-05-09-29174), December 2009.

16
  In three cases, an outside organization sponsored the reception. In another case, an outside
organization contributed to the cost of the reception.


SSA Off-site Training Conferences (A-05-10-21035)                                                             9
the submitted information whether the food was served during the training or as part of
an after-hours reception. In prior reviews, we have found problems with SSA
procurement of receptions. 17 As part of the Commissioner’s new conference policy
guidance, SSA will no longer fund such receptions. We discuss this new policy later in
the report.

Locations of Conferences

We also evaluated the site locations of the various conferences. Maryland is the only
State to occupy the top spot based on two sets of ranking criteria—attendance and
number of conferences (see Figure 2). Given that SSA Headquarters is located in
Baltimore, Maryland; its predominance is understandable from both cost and time-
efficiency viewpoints. SSA components reported 6,859 conference attendees in
Maryland, during this period or 26 percent of the 26,070 attendees reported for all
conferences. 18 Further, when we removed the 7,084 attendees reported for regionally
sponsored conferences, 19 Maryland's share increased to 36 percent of the
18,986 attendees reported for all non-regionally sponsored events.




17
  See SSA OIG, Association of Administrative Law Judges' Training Conference Costs
(A-12-08-28037), April 2008, and Congressional Response Report: San Francisco Regional Management
Training Forum (A-05-09-29174), December 2009.
18
  Appendix D provides supplemental data identifying the top conference cities by number of conferences
and by number of attendees. We found that Baltimore, Maryland, was the top conference city under both
sets of ranking criteria.
19
  See Appendix C. We found the Region-sponsored conferences were held within one of the Region’s
States. For example, a Boston Region conference would be held in Connecticut, Maine, Massachusetts,
New Hampshire, Rhode Island, or Vermont.


SSA Off-site Training Conferences (A-05-10-21035)                                                   10
               Figure 2: Top 10 State Locations by Number of Attendees
                             and Number of Conferences
                            (October 2004 Through November 2009)




Georgia had the second largest number of attendees. This is due to a large, one-time
Diversity Conference in Atlanta sponsored by OHR in 2006 for 1,458 people. Without
this conference, Georgia would have ranked fourth in the top 10 conference States
under attendee volume criteria. The other statistic worth noting regards the State of
California. Specifically, while California is third place in Figure 2 for hosting
2,364 conference attendees during the timeframe under examination, it occupies
second place in terms of number of conferences. The chief reason for the relatively low
per-conference headcount in California is the number of training sessions reported by
ORDP. ORDP reported 9 events for Disability Hearing Officer Training, with no more
than 25 persons reported to be in attendance at any single event. 20




20
  This conference was reported to us because it met our dollar threshold on contracted costs. See
Appendix B.


SSA Off-site Training Conferences (A-05-10-21035)                                                   11
In Figure 3, we illustrate the location of all 168 SSA conferences by State in terms of
attendance.

               Figure 3: Top Conference States by Number of Attendees
                             (October 2004 through November 2009)




Legend:
• Red States represent 1,000 or more conference attendees during this period.
• Yellow States represent 500 to 999 conference attendees during this period.
• Gray States represent 10 to 499 conference attendees during this period.
• White States had no reported conference activity.

Note: No conferences were held in Alaska or Hawaii during this period. In addition, 1 conference in
Puerto Rico during this period had 94 attendees.

Other Conference Trends and Analysis

We also analyzed the volume of conferences held during FYs 2005 through 2009
timeframe based on both the number of conferences and the number of attendees at
those conferences. Our results are in Figure 4.




SSA Off-site Training Conferences (A-05-10-21035)                                                     12
               Figure 4: Year to Year Trend in Conference Attendance
                            and Number of Conferences
                          (October 2004 Through September 2009)




Based on this information, we determined that 2008 was the peak FY for holding
meetings under both sets of criteria. These charts show that there is a strong, positive
correlation between the number of conferences held each year and the number of
people participating.

CONFERENCES FOR FISCAL YEAR 2010
As discussed earlier, our review of conferences covered the full FYs 2005 through
2009, plus 10 conferences in the first 2 months of FY 2010 (October and
November 2009). The Agency reported 62 more training events taking place between
December 2009 and September 2010 that met the OIG reporting criteria. As a result, at
the time of our review, SSA had reported 72 total conferences planned for FY 2010 (see
Table 3). As these FY 2010 conferences were at different stages of the planning and
approval process at the time of our data call in late November 2009, the tentative
information about these meetings cannot be relied on for meaningful interpretation.




SSA Off-site Training Conferences (A-05-10-21035)                                      13
                      Table 3: Conferences Planned for FY 2010

                                                           Number of Planned
                           Component                         Conferences
         Office of Disability Adjudication and Review                         7
         Office of General Counsel                                            2
         Office of Human Resources                                           19
         Office of Operations                                                25
         Office of Quality Performance                                        1
         Office of Retirement And Disability Policy                          17
         Office of International Programs                                     1
         Totals                                                              72

The 72 meetings attributable to FY 2010 represent the greatest number of meetings
reported for a single year over the last 6 years (FYs 2005 to 2010). The number of
reported meetings for FY 2010 could change since these are proposed conferences and
not all of them may take place. In addition, as we noted earlier, the reported number of
past conferences, particularly for meetings dating 4 or 5 years ago, is likely to be less
complete in comparison to more recent conference information.

NEW CONFERENCE POLICY

On August 18, 2009, the Commissioner of SSA issued a memorandum on Conference
Management Improvement regarding the Agency’s planned oversight of conference
planning and associated procurement activities. The Commissioner centralized
conference oversight and related procurement activity in the Office of Budget, Finance
and Management. In addition, a conference planning support staff was established to

• provide clear guidance for conference planning and execution, including updating
  AIMS and publishing a conference guide on SSA’s Intranet Website;
• implement a process for reviewing and approving all components’ upcoming
  conference plans at the beginning of each FY; and
• implement a post-conference process for evaluating conference planning and
  execution.

On September 24, 2009, the Agency held a meeting to provide senior staff with
templates for completing the different requirements at the different stages in the
planning and implementation of training conferences. Under the new guidelines,
Agency components were required to provide their proposed conference plans for
FYs 2010 and 2011 by November 30, 2009. In addition, senior staff was informed that
components should (1) consider SSA facilities as the first option for conferences;
(2) end sponsorship of pre- and/or post-conference social events; (3) ensure Federal




SSA Off-site Training Conferences (A-05-10-21035)                                     14
funds are not used for gifts, door prizes or other giveaways; and (4) end acceptance of
donations from non-Federal entities. 21 This new policy should improve Agency
oversight and controls over off-site training conferences.

SSA has also established an Intranet Website that provides managers with guidelines
and reporting forms. In our review of the reported FY 2010 conference data, we found
that some of the meetings were supported by the Agency’s new SSA Conference
Proposal form, and most of these appeared to be complete as to form-required data,
such as expected purpose, locations, costs, and attendees. 22 Appendix F contains
additional information on the new control activities for off-site training conferences as
well as a sample copy of this form.




21
  SSA staff stated AIMS is being updated to reflect this new conference approval process as well as
updated food and light refreshment guidance.
22
  We will provide more information on this new reporting process in our second review, Training
Expenditures at the Social Security Administration (A-05-10-10118).


SSA Off-site Training Conferences (A-05-10-21035)                                                     15
                                                               Conclusions
Between October 2004 and November 2009, SSA spent approximately $23.5 million to
train about 26,000 individuals at 168 conferences. SSA plans to hold a total of
72 conferences in FY 2010, 10 of which are included in the 168 conferences through
November 2009. Based on these reported data, we determined that SSA expended
approximately $2,000 per attendee at off-site conferences when one considers direct
conference costs (approximately $23.5 million) as well as salary and benefit costs
(approximately $29.1 million). However, it is possible that the majority of these same
costs would have been incurred had similar in-person training been provided at an SSA-
owned facility.

We found that most SSA components were conducting conferences and the nature of
the training varied depending on the components’ missions. In addition, while we found
that conferences were held in 28 States, as well as the District of Columbia and Puerto
Rico, the majority of the conferences reviewed took place at locations in geographic
proximity to SSA Headquarters in Baltimore, Maryland.

We found a general lack of centralized control over conference planning and
administration during our review period, particularly with respect to cost reporting and
attendee tracking. We also found a wide range of costs associated with audiovisual
services and speaker fees. However, the Commissioner’s new policy will create a
centralized control process over off-site training conferences. These recent steps
should provide (1) increased assurance as to the appropriateness and necessity of
future conferences; (2) stronger control over training expenditures; and (3) improved
compliance with Agency policy and statutory regulations.




SSA Off-site Training Conferences (A-05-10-21035)                                          16
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Office of Operations – Conference Analysis
APPENDIX D – Top 10 Conference Cities by Frequency and Attendance
APPENDIX E – Estimated Salary and Benefit Cost
APPENDIX F – Social Security Administration Conference Proposal Form




SSA Off-site Training Conferences (A-05-10-21035)
                                                                     Appendix A

Acronyms

    AIMS                     Administrative Instructions Manual System
    ALJ                      Administrative Law Judge
    C.F.R.                   Code of Federal Regulations
    DDS                      Disability Determination Services
    FY                       Fiscal Year
    GS                       General Schedule
    HOCALJ                   Hearing Office Chief Administrative Law Judge
    IVT                      Interactive Video Teletraining
    ODAR                     Office of Disability Adjudication and Review
    ODD                      Office of Disability Determination
    OFPO                     Office of Financial Policy and Operations
    OGC                      Office of General Counsel
    OHR                      Office of Human Resources
    OIG                      Office of the Inspector General
    Operations               Office of Operations
    ORDP                     Office of Retirement and Disability Policy
    SES                      Senior Executive Service
    SSA                      Social Security Administration




SSA Off-site Training Conferences (A-05-10-21035)
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal regulations and the Social Security Administration’s
    (SSA) policies and procedures pertaining to training and procurement, including the
    Administrative Instructions Manual System pertaining to training activities at Federal
    agencies.

•   Obtained information on SSA conferences conducted over the past 5 years. To do
    this, we worked with the Agency’s Audit Liaison team and contacted all the Agency’s
    components requesting any meetings or conferences that met the following criteria:

            Was held from October 2004 to present (5-year span); AND

            SSA was the primary sponsor of an event held at a non-SSA facility, no
             matter how many employees attended; OR

            50 or more employees attended an event that another organization
             sponsored and SSA paid for travel or provided time off for employees to
             attend (did not include grants or cooperative agreements); AND

            It was a multi-day event; AND

            It required travel away from the employees’ duty station.

       In the case of fewer than 50 SSA employees where SSA is the primary sponsor,
       we qualified the reporting requirement to cover only those conferences where the
       supplies and/or services exceeded $25,000 and required a competitive bidding
       process.

       If the above criteria were met, we required that the Agency components report
       the following data.

            Name of the Event

            Purpose for the Event

            Location of the Event

            Length of the Event (Days/Time)

            Agenda for the Event


SSA Off-site Training Conferences (A-05-10-21035)                                       B-1
            Name of Speakers/Presenters

            Number of employees attending the Event AND specific information on
             the employees, including the following.

              1. Name of employee
              2. Title of employee
              3. Grade Level of employee

            Costs Associated with the Event, including the following.

              1.   Travel Costs
              2.   Lodging Costs
              3.   Meals
              4.   Speakers/Presenters
              5.   Entertainment
              6.   Conference Room Rental
              7.   Equipment
              8.   Audiovisual Fees

•   Requested and reviewed data on SSA conferences held or planned to be held
    during Fiscal Year 2010 using the aforementioned reporting criteria. The criteria we
    applied was similar but not identical to the reporting criteria set forth by the Office of
    Finance Policy and Operations (OFPO)—see Appendix F. Hence, our report may
    contain a different number of conferences for FY 2010 than that reported by OFPO.

•   Spoke with Agency staff about OFPO’s administration of the new conference
    reporting policy.

In this review, we are not opining on the appropriateness of (1) the use of conferences
as a training method or (2) holding a conference at a particular location. In addition, we
are not opining on the accuracy or completeness of the conference information supplied
to us by the Agency. Our review was limited in scope to compiling and analyzing
training conference data as supplied to us by Agency management from the different
SSA components. As such, we relied on the representations of Agency personnel
indicating that the data reported to us were complete and accurate to the best of their
awareness and ability. Accordingly, our work did not constitute an audit of such
information. We did, however, apply certain analytical review procedures when
compiling this information as follows.

•   Reviewing reported conference information for reasonableness, making limited
    inquiries of management for anomalous data, such as extraordinarily high expenses.

•   Sorting and ranking conference data by State and City, number of conferences, and
    number of attendees.




SSA Off-site Training Conferences (A-05-10-21035)                                           B-2
•   Calculating and identifying significant statistical data, such as mean values and data
    ranges for key elements, including conference costs, number of attendees, and
    length of events.

•   Estimating the salary and benefit costs related to SSA employee time spent at off-
    site training events instead of performing routine duties at their regular place of work.

We conducted our work from August 2009 through March 2010 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform our work to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our objectives. We believe
the evidence obtained provides a reasonable basis for the findings and conclusions
contained in this report.




SSA Off-site Training Conferences (A-05-10-21035)                                         B-3
                                                                                   Appendix C

Office of Operations – Conference Analysis
Table C-1 provides details on conferences conducted by the Office of Operations
(Operations) from October 2004 through November 2009.

                 Table C-1: Conferences Under the Office of Operations
                                 (October 2004 to November 2009)
                                                 Number of        Number of
             Regional Offices                   Conferences       Attendees           Reported Costs
Atlanta                                                     2                661         $       501,837
Boston                                                     10              1,058                 238,679
Chicago                                                     0                  -                       -
Dallas                                                      7                832                 189,687
Denver                                                      2                250                 210,419
Kansas City                                                 1                362                 258,115
New York                                                   11              1,313                 446,101
Philadelphia                                                0                  -                       -
San Francisco                                               9              1,707                 764,614
Seattle                                                     3                901                 334,646
                  Subtotal – Regional Offices              45              7,084         $     2,944,098
Office of Telephone Systems                                 1                125         $       160,000
Office of Central Operations                                1                298                  83,713
Office of Systems                                           2              1,419               1,083,883
Office of Disability Determination                         14              3,665                 661,757
                Subtotal – Operations Other                18              5,507         $     1,989,353

    GRAND TOTAL FOR OPERATIONS                             63             12,591         $     4,933,451


As shown above, the Office of Disability Determination (ODD) held the greatest number
of training conferences and trained the most people of all Operations’ subcomponents
or individual regional offices. ODD’s training activities are generally oriented toward
training state disability determination services (DDS) personnel. When reviewing
ODD’s conference data, we noted nine training events that were specifically identified
as DDS-related forums. 1




1
  DDS attendees are reimbursed by their State DDS and SSA later reimburses the State for appropriate
administrative costs, including mission-related travel. As a result, we may not have the complete costs
related to these DDS-related forums.


SSA Off-site Training Conferences (A-05-10-21035)
                                                                                                     Appendix D

Top 10 Conference Cities by Frequency and Attendance
We analyzed the location of Social Security Administration conferences held from October 2004 through November 2009
by State and City. The top three cities, by number of conference attendees, were Baltimore, Maryland; Atlanta, Georgia;
and Phoenix, Arizona (see Figure D-1).

                     Figure D-1: Top 10 U.S. City Locations by Number of Conference Attendees
                                      (October 2004 Through November 2009)




SSA Off-site Training Conferences (A-05-10-21035)                                                                    D-1
The top three cities, by number of conferences were Baltimore, Maryland; Sacramento, California; and Chicago, Illinois
(see Figure D-2).

                           Figure D-2: Top 10 U.S. City Locations by Number of Conferences
                                        (October 2004 Through November 2009)




SSA Off-site Training Conferences (A-05-10-21035)                                                                        D-2
                                                                                    Appendix E

Estimated Salary and Benefit Cost
As part of our analytical review procedures, we calculated an estimated salary and
benefit cost for Social Security Administration (SSA) employees attending each
conference held from October 2004 through November 2009. We performed this
analysis to develop a quantitative basis for understanding the full costs associated with
employee time spent on training. Our analysis does not include an opinion on the
relative importance or efficacy of SSA employee training activities.

To estimate the salary and benefit costs, we used the following methodology and
assumptions.

•     We defined three grade categories based on average General Schedule (GS)
      employment grades, High (H), Medium (M), and Low (L).

•     We defined a fourth category, administrative law judges (ALJ), to accommodate
      conferences primarily attended by ALJs.

•     An average attendee employment grade was assigned to each conference using the
      aforementioned H, M, L, and ALJ categorizations.

•     We then estimated average annual wages for each category by using the 2007 GS
      Salary Table 1 for the H, M, and L classifications.

      -- The High category used the mean wage for grades 14 and 15, all steps. 2

      – The Medium category used the mean wage for grades 10 through 13, all steps.

      -- The Low category used the mean wage for grades 5 through 9, all steps.

•     We estimated the average annual wage for the ALJ category using Salary Table No.
      2007-EX using the mean Rate of Basic Pay for Levels I through V.




1
    The year 2007 was chosen as it represents the midpoint year for the period under review.
2
 Senior Executive Service (SES) compensation levels were disregarded for simplicity and conservatism,
particularly as SES employees, where indicated on attendee lists, appeared infrequently.


SSA Off-site Training Conferences (A-05-10-21035)                                                  E-1
•     Average annual wages were grossed up by a factor of 25 percent to contemplate
      employee taxes and benefits. 3

•     An average daily wage was calculated by dividing the grossed up amounts from the
      previous step by 250 days. 4

•     The average daily wage was multiplied by the number of attendees. This product
      was then multiplied by the number of days for each conference to arrive at a total
      salary and benefits cost for each event.

SSA reporting components were unable to supply employment grade levels for all
attendees for all conferences, particularly for earlier meetings. In these cases, average
grades were judgmentally determined and assigned using agendas and conference
descriptions. In the absence of sufficient alternative information, conferences with
substantially incomplete attendee grade data were assigned to the Medium category by
default. The resulting amounts represent the fully burdened standard costs for each
category used in our study, summarized as follows in Table E-1.

                          Table E-1: Fully Burdened Employee Costs

                                                                                           Including
                                                                                          Taxes and
                             Standard Cost         Average           Average Daily       Benefits at 25
        Average Grade          Category          Annual Wage            Wage                Percent
    GS-14 and Above                H                   $ 99,002               $ 396                $ 495
    GS-10 through GS-13            M                     61,233                 245                  306
    GS-9 or Less                   L                     36,777                 147                  184
    ALJs                          ALJ                   158,160                 633                  791

Based on our calculations, we estimate the total salary and benefit costs for SSA
employees attending the 168 training events under review to be about $29 million,
approximately 23 percent greater than the reported conference costs of $23.5 million.




3
  The 25 percent taxes and benefits overhead application rate was corroborated as reasonable with both
the Offices of Human Resources and Operations.
4
  The annual number of days used in the denominator of this fraction was taken from a previously
published OIG report, Quick Response Evaluation: Office of Disability Adjudication and Review
Management Information, A-07-09-29162, Appendix C, Note 4. The Agency reported that a denominator
of 260 days (2080 work hours divided by 8 work hours per day) is often used to perform this type of
calculation. However, the introduction of 10 Federal holidays reduces the number of work days to about
250 days. Therefore, we used 250 work days to represent the amount of time an individual is actually
performing SSA duties. The potential impact of using the 250-day denominator versus the 260-day
denominator is approximately a 4 percent difference in per-day costs, with the 250-day denominator
leading to higher reported costs.


SSA Off-site Training Conferences (A-05-10-21035)                                                   E-2
                                                                         Appendix F

Social Security Administration Conference
Proposal Form
In this Appendix, we provide a sample copy of the SSA Conference Proposal form
instituted by the Commissioner of the Social Security Administration (SSA) as of
October 1, 2009. The form requires that the requesting entity include all salient
conference details such as purpose, location, facilities, attendees, costs, as well as
narrative justification for the expenditure. The guidelines for its use are governed by the
SSA Conference Planning Guide, Section B—Management Oversight and Approval.
The following is an excerpt from the SSA Planning Guide:

Management oversight of the conference planning process is very important. By October 1,
2009, we will implement an annual process for prior review and approval of conference
plans. The process will be structured like this:

       Each fiscal year, the Deputy Commissioners (DC) will document and review their
        component’s 2-year conference plans prior to submitting them to the Office of
        Financial Policy and Operations (OFPO) for prior review and approval.

       Conferences meeting the following two criteria must be included in the plan:
           o When you expect to use a Federal facility, report events if:
                   there will be more than 50 travelers attending; or
                   food may be purchased with agency funds; or
                   a compensated speaker, or other compensated entertainment, is
                     planned.
           o When you expect to use a non-Federal facility, report events if:
                   total costs and services (including travel) are $25,000 or more; or
                   food may be purchased with agency funds; or
                   a compensated speaker, or other compensated entertainment, is
                     planned.

In essence, all SSA components must now apply for centralized approval prior to
planning or holding a conference of any sort, not just training; the applicant’s proposal
will be subjected to review and control by OFPO before SSA components are allowed to
commit Federal funds. As illustrated in the sample copy of the new SSA Conference
Proposal form below, authorizing signatures are now a required and important control
feature of the (modified) conference planning process.




SSA Off-site Training Conferences (A-05-10-21035)                                          F-1
                                   (SAMPLE COPY)
                      ________________________________________

                                      SSA Conference Proposal


   Conference Title:
   Sponsoring Component:
   Request Date:
   Contact Name/Ext.:

   We are aware that you may not yet have all of the information requested. For conferences where not
   all information is available, please fill in the information that you currently have. For all categories
   where information is not currently available, fill in “to be provided” or “TBP” and update the proposal
   form once this information is available. At a minimum, include the purpose and expected date ranges.

    Purpose: (Include description and purpose, agency benefit and expected results)




    Alternatives: (If you have considered alternatives, please identify and provide reasons why
    they were not feasible. Otherwise, please consider alternatives and provide details when
    available.)




    Attendees: (Estimate of number of SSA, other Federal employees and non-Federal
    participants. For SSA attendees, identify field/region/HQ. Do not include employee names or
    PII. If attendee information is not currently known, provide when available)



    Presentation: (Please provide possible topics of discussion as well as a list of possible
    speakers to the extent available. If this information is not currently known, provide when
    available.)




SSA Off-site Training Conferences (A-05-10-21035)                                                       F-2
    Proposed Date(s): (If specific dates are not available, please provide approximate time of
    year (i.e. quarter, season) and provide further details when they become available.)




    Location: (Please provide location or locations that are under consideration. If this
    information is not currently known, provide when available. Once the location has been
    selected, please provide a reason for the selection.)




    Facility: (Please provide the name of the facility and why it was selected. If the facility is non-
    government, please explain why a government location was not chosen. If this information is
    not currently known, provide when available.)




    Govt. Provided Meals or Refreshments: (If food is planned, please provide details and explain
    why necessary. If this information is not currently known, provide when available.)




SSA Off-site Training Conferences (A-05-10-21035)                                                  F-3
    Estimated Costs: (Provide best estimates or projections to the extent possible. Please
    submit estimates that are more accurate when they become available.)

                                        Anticipated Item                                        COST

    Transportation                                                                          $

    Lodging                                                                                 $

    Meals and Incidentals                                                                   $

    Govt. Provided Meals or Refreshments                                                    $

    Facility - Details                                                                      $

    Equipment (e.g., audio-visual) – Details                                                $

    Supplies – Details                                                                      $

    Speakers/Guests – Details                                                               $

    Other Miscellaneous Costs (Tokens, mementos, giveaways are against SSA                  $
    policy.)
    TOTAL COSTS (right click on amount to update field)                                     $ 0.00

    Additional Facts: (Previous conferences/total costs; other relevant information)




  Prepared by:_________________________________________________________
  Date____________

  Deputy Commissioner/Equivalent:_______________________________________
  Date____________
  Office: ______________________________________________________________
  Date____________

   Submit to: ^Conference Planning

   **************************************************************************************
   Internal Use Only:
   Approved________________ Date________                  Disapproved________________ Date ______


              ___________________________________________________



SSA Off-site Training Conferences (A-05-10-21035)                                                      F-4
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
